1a
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

Argued March 10, 2020

Decided June 19, 2020

No. 18-3081
UNITED STATES OF AMERICA,
APPELLEE
V.

MICHAEL SANG HAN,
APPELLANT
-----------------------------------------------------------------------

Appeal from the United States District Court
for the District of Columbia,
(No. 1:15-cr-00142-1)
-----------------------------------------------------------------------

John August Boeglin, appointed by the court, argued the cause for appellant. With him on the briefs
were Kevin King, Michael J. Gaffney, and Tarek J. Austin, all appointed by the court.
Elissa Hart-Mahan, Attorney, U.S. Department of
Justice, argued the cause for appellee. With her on the
brief were Alexander P. Robbins, Attorney, and Jessie
K. Liu, U.S. Attorney at the time the brief was filed.
Elizabeth Trosman, Assistant U.S. Attorney, entered an
appearance.
Before: HENDERSON, GARLAND and MILLETT, Circuit
Judges.

2a
Opinion for the Court filed by Circuit Judge GARLAND.
GARLAND, Circuit Judge: After a seven-day jury
trial, defendant Michael Han was convicted of tax evasion in connection with his 2010 and 2011 individual
tax returns. As chief executive of a recycling technology
company, Han solicited millions of dollars from investors Frank Carlucci and James Russell. In the tax
years charged, Han spent much of that company
money on personal expenses. He also used it to pay
down debt he owed the company for spending yet more
company money on himself between 2004 and 2009.
Han failed to report as income the corporate funds he
converted to his personal benefit.
On appeal, Han challenges several rulings by the
district court and the conduct of both the prosecution
and his own counsel. We reject each challenge and affirm the judgment of the district court.
I
Han was the founder and chief executive of Envion, Inc., a recycling technology company that never
sold any recycling technology and never earned any
revenue. From 2004 to 2009, Han spent millions in investor funds on personal expenses, including Porsche
sports cars. See Appendix (A.) 487-503. Neither Han
nor Envion filed tax returns for any of those years until
2010, when prompted by an IRS notice about the delinquency. As Han turned to preparing his and the
company’s returns, he learned from his accountants

3a
that his personal expenditures made with corporate
funds could potentially be treated either as “taxable
compensation” or as “a loan [from Envion] to the shareholder[, Han].” Supplemental Appendix (S.A.) 130 (accountant testimony). If treated as a loan, the money
would not be taxed, but Han would have to repay it in
the future. Id. He opted to treat the personal expenditures as shareholder loans.
At roughly the same time, Han solicited a further
$22 million from two of his existing investors, Frank
Carlucci and James Russell. Although Carlucci and
Russell thought they were providing the funds to Envion, see S.A. 73, 114-15, Han instead had them wired
to his personal accounts, see S.A. 159, 165. He then
used those funds to pay down his shareholder loan balance and make further personal expenditures, including the purchase of a Ferrari and renovations on his
Palm Beach home. See S.A. 175, 198. In light of Han’s
failure to report his conversion of corporate funds as
income, the IRS ultimately concluded that Han had
avoided paying $1,133,784 in taxes in 2010 and
$3,822,243 in 2011.
Han was tried for tax evasion in connection with
his 2010 and 2011 personal tax returns. Although Han
did not himself testify, the heart of his defense was the
claim that he had a good-faith belief that the funds
from Carlucci and Russell were personal loans, which
would not have been taxable. The jury convicted Han
on two counts of tax evasion, and the district court sentenced him to 48 months’ imprisonment.

4a
On appeal, Han mounts four challenges to his convictions. He argues that: (1) the district court admitted
evidence that was irrelevant and improperly showed
prior “bad acts”; (2) the government improperly appealed to “class prejudice” throughout the trial; (3) the
district court erred in declining to give Han’s preferred
theory-of-the-defense instruction; and (4) his trial
counsel was ineffective. We address those challenges
below.
II
Han’s principal contention is that the court
wrongly permitted the government to introduce evidence that was not relevant to the 2010 and 2011 tax
evasion charges, in violation of Federal Rule of Evidence 402. See FED. R. EVID. 402 (“Irrelevant evidence
is not admissible.”). Han further maintains that the evidence was instead introduced to show prior bad conduct, in order to prove his bad character and a
propensity to act in accordance with that character, in
violation of Rule 404(b). See FED. R. EVID. 404(b)(1)
(“Evidence of a crime, wrong, or other act is not admissible to prove a person’s character in order to show that
on a particular occasion the person acted in accordance
with the character.”). “We review a district court’s evidentiary rulings for abuse of discretion,” United States
v. Alexander, 331 F.3d 116, 121 (D.C. Cir. 2003), and we
find none.
1. We start with the evidence of Han’s expenditures from 2004 to 2009 and with his personal tax

5a
returns for those years. Han maintains that there was
no reason to introduce evidence of any of that past conduct. To show tax evasion in 2010 and 2011, he says, it
would have sufficed to show that he converted corporate funds to personal use in 2010 and 2011. To the extent that Han used corporate funds to pay down his
debt to Envion for earlier personal spending, he argues,
the government did not need to demonstrate how that
debt arose. As he says, it would have been unlawful for
him to fail to report the repayments regardless of
whether he had previously used Envion’s money on
charitable donations or on flashy cars.
This argument is true enough – as far as the government’s obligation to show the existence of a tax deficiency goes. But it ignores the issue of Han’s intent.
In a tax-evasion case, the government’s burden on that
issue is steep. The prosecution was required to demonstrate beyond a reasonable doubt that Han acted willfully – “that the law imposed a duty on the defendant,
that the defendant knew of this duty, and that he voluntarily and intentionally violated that duty.” Cheek v.
United States, 498 U.S. 192, 201 (1991); see United
States v. Khanu, 662 F.3d 1226, 1229 (D.C. Cir. 2011).
The evidence in controversy was central to that issue. Although Han makes much of the fact that the
other returns introduced were for “earlier” tax years,
he did not file them until 2010 and 2011 – roughly contemporaneously with the conduct charged. Compare,
e.g., A. 436 (Han’s 2006 tax return, filed June 2, 2011),
with A. 368 (Han’s 2010 return, filed November 14,
2011). And it was in the process of characterizing his

6a
2004-2009 expenditures for those other returns, the
government argued, that Han learned he could not defensibly characterize splurges on flashy cars (and other
items) as business expenditures: It gave him “sort of a
tutorial, [an] education session.” S.A. 230 (government’s closing argument). Han learned that he would
have to find a different characterization if he wanted
to avoid paying taxes on that and similar spending going forward. In other words, he developed “knowledge
of [his] tax obligations” and began willfully planning to
defy them. S.A. 231 (government’s closing argument).
Accordingly, the 2004-09 evidence was both relevant to the 2010-11 charges under Rule 402 and admissible under Rule 404(b). See FED. R. EVID. 404(b)(2)
(providing that evidence of prior crimes, wrongs, or
other acts “may be admissible for another purpose,
such as proving . . . intent, . . . plan, [and] knowledge”).
As we have explained, “[i]ntent and knowledge are . . .
well-established non-propensity purposes for admitting evidence of prior crimes or acts.” United States v.
Bowie, 232 F.3d 923, 930 (D.C. Cir. 2000).1
Han further insists that, even if the 2004-09 evidence were relevant and admissible, its probative
value was “substantially outweighed by the danger of
. . . unfair prejudice.” FED. R. EVID. 403. Again, we may
1

The district court did not address the government’s argument that the evidence was not covered by Rule 404(b) at all because it was “intrinsic” to the charged offenses. See Bowie, 232
F.3d at 929. Because we conclude that the evidence was admissible under Rule 404(b) in any event, we also have no need to address whether it was intrinsic.

7a
overturn a district court’s conclusion on that ground
only if we find an abuse of discretion. United States v.
Gartmon, 146 F.3d 1015, 1020 (D.C. Cir. 1998). We find
nothing even close. To the contrary, the district court
“took the appropriate steps to minimize the danger
that the jury would use the 404(b) evidence for an improper purpose,” United States v. Pettiford, 517 F.3d
584, 590 (D.C. Cir. 2008), warning the government not
to “linger on the more salacious details,” A. 88, and issuing an appropriate precautionary instruction, A.
328.
2. Han also charges that the court erred in admitting evidence that he made misrepresentations to
investors about Envion’s economic prospects. As we
noted above, Han’s principal defense was the claim
that Carlucci and Russell had loaned $22 million to
him personally, rather than to Envion. Han agrees, of
course, that the government was entitled to dispute
that characterization with evidence of how Carlucci
and Russell thought the funds would be used. But, he
says, “[w]hile the representations that Carlucci and
Russell relied on in wiring money to Mr. Han were relevant, evidence that these statements were misrepresentations was not.” Han Br. 28.
We disagree. Whether a borrower has the intent
and ability to repay a purported loan is a factor in judging whether the transaction is in fact a loan for tax
purposes. See United States v. Swallow, 511 F.2d 514,
519 (10th Cir. 1975) (holding that “loans obtained in
bad faith and without an intent to repay them” are taxable income); see also, e.g., United States v. McGinn,

8a
787 F.3d 116, 126-27 (2d Cir. 2015); Welch v. Comm’r,
204 F.3d 1228, 1230 (9th Cir. 2000). Here, the government introduced the challenged evidence to show that
Han knew the deals he told the investors would be the
source of their repayment would never be consummated – and hence that the investors’ money could not
have constituted loans to Han because he had no intent
or ability to repay them. A. 204-05; see also A. 205 (government proffer that Han “did not have any independent money”).
Finally, we note that the district court once again
took exemplary care to insist that testimony on this
subject be “brief[ ]” and “very tailored,” and “to limit
[how the government] could argue” the evidence in its
closing. A. 208-09. We therefore conclude that the probative value of this evidence was not outweighed – substantially or otherwise – by the danger of unfair
prejudice. See FED. R. EVID. 403.
III
As a companion to his argument that the government’s evidence was unduly prejudicial, Han alleges
that the prosecution engaged in “a persistent appeal to
class prejudice” from start to finish. Han. Br. 37 (quoting United States v. Stahl, 616 F.2d 30, 33 (2d Cir.
1980)). He emphasizes in particular that the government walked its witnesses through expenditures that
it had excluded from its calculation of Han’s tax liability. Han Br. 35, 36.

9a
But the government stayed within permissible
bounds. To establish the existence and extent of the tax
deficiency, the prosecution sought to show that the
items on which Han spent corporate funds could not
possibly be characterized as business expenses. As the
district court rightly observed, that necessarily entailed showing the nature of those expenses and arguing, for example, that expensive sports cars could not
have been company vehicles. See A. 176-77. As for the
expenses excluded from the final calculation, the government brought them up to demonstrate where it
drew the line – and how conservatively it did so. As the
prosecutor put it in closing, the point was to show that
the government’s case was “focus[ed] on the things
that are pretty clear and obvious,” and that the government had not overcharged Han. A. 358.
IV
Next, Han argues that the district court erred in
its handling of his theory-of-the-defense instruction.
Included in the defense’s proposed instruction was a
sentence stating that “Mr. Han believed that the funds
he received in 2010 could legally be treated as non-taxable personal loans.” A. 276. The district court struck
that sentence on the theory that, “since [Han] didn’t
testify, we don’t know what he believed.” A. 295-96. The
government agrees with Han that this was not a valid
basis for refusing to include that statement. U.S. Br. 51
(citing United States v. Hurt, 527 F.3d 1347, 1351 (D.C.
Cir. 2008)). And although the remainder of the instruction made clear that Han was mounting a defense

10a
based on his claimed good-faith belief, it did not include the point that loans are not taxable.
Nonetheless, any error on this front was harmless.
“[I]n light of all the circumstances – the language of
the instructions, the arguments of counsel, and the evidence itself ” – there was no real risk of confusion
about Han’s theory of the case or its legal basis. United
States v. Lemire, 720 F.2d 1327, 1339 (D.C. Cir. 1983).
The government’s expert witness repeatedly testified
that personal loans are not taxable. See S.A. 187-89,
215-16. The defense’s expert witness testified that personal loans are not taxable. See A. 263. And as Han’s
counsel stressed during closing arguments, there was
no disagreement on the point. See S.A. 270. Moreover,
as Han further acknowledged on appeal, “ ‘the incredibility of [a defendant’s] claim that he considered the
transactions to be loans’ can provide a basis to find the
failure to instruct harmless.” Han Br. 47 (quoting
United States v. Black, 843 F.2d 1456, 1462 (D.C. Cir.
1988)). On the record of this trial, Han’s claim that the
$22 million from Carlucci and Russell were personal
loans to him, rather than investments in the company,
falls well within the “incredible” category.2
2

See, e.g., S.A. 73 (Russell’s testimony that he did not, and
would not, have given Han a personal loan); S.A. 114-15 (Marcia
Carlucci’s testimony that her husband, who was too ill to testify,
would not have given Han a $20 million loan); A. 481-85 (global
promissory note drafted by Han for Carlucci characterizing Envion as the debtor for the relevant amount); A. 464-69 (global
promissory note for Russell characterizing Envion as the debtor
for the relevant amount); A. 254-55 (Han’s stipulation in a civil
suit that Carlucci provided the $20 million “to Envion” and that

11a
V
Finally, Han argues that he received ineffective assistance of counsel. The essence of this claim is that his
attorney, over the warnings of the district court,
opened the door to the otherwise inadmissible fact that
Han has been held liable in a civil suit brought by Carlucci. See A. 189-196; cf. United States v. Grey, 891 F.3d
1054, 1058-60 (D.C. Cir. 2018) (observing that juries
are “apt to give exaggerated weight to a judgment,” especially where “the civil judgment and the criminal
charges involved virtually identical conduct” (internal
quotation marks omitted)). When ineffectiveness “is
raised for the first time on appeal, as it is here, our
general practice is to remand to the district court for
an evidentiary hearing unless it is clear from the record that counsel was or was not ineffective, or that the
supposed defect in representation amounted to a strategic choice.” United States v. Weaver, 281 F.3d 228,
233-34 (D.C. Cir. 2002).
In this case, we find the issue clear enough to decide for ourselves. A defendant claiming ineffective assistance must both demonstrate that “counsel’s
representation fell below an objective standard of reasonableness,” Strickland v. Washington, 466 U.S. 668,
688 (1984), and show “a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different,” id. at 694.
Counsel’s choice here may or may not have been
“Han [was] not a party to the promissory note” (emphases
added)).

12a
strategic,3 but we need not resolve that question.
“[G]iven the extensive evidence of [his] guilt,” Grey,
891 F.3d at 1062, Han has no colorable argument that
he was prejudiced by his attorney’s decision. Although
we will refrain from reciting the entirety of the government’s case to that end, see, e.g., supra note 2, we will
stress one of the most damning parts: Han’s own stipulation, in his answer to Carlucci’s civil suit, that “Mr.
Carlucci provided $20 million to Envion,” and that
“Han [was] not a party to the promissory note.” A. 51617 (emphases added). (Han did not object to the admission of this stipulation, only to the fact of the judgment
of liability.) So much for Han’s claim that the money
Carlucci provided was just a personal loan to Han.
VI
For the foregoing reasons, the judgment of the district court is
Affirmed.

3
The civil judgment came up in connection with defense
counsel’s cross-examination of Kyle Harkrader, Han’s ex-wife,
who testified against him and who had previously settled with
Carlucci. See A. 189-96. As counsel explained at the time, his goal
was to suggest that Harkrader might have had reason to deflect
responsibility onto Han. A. 190-91.

13a
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

No. 18-3081

September Term, 2019
FILED ON: JUNE 19, 2020

UNITED STATES OF AMERICA,
APPELLEE
V.

MICHAEL SANG HAN,
APPELLANT
-----------------------------------------------------------------------

Appeal from the United States District Court
for the District of Columbia
(No. 1:15-cr-00142-1)
-----------------------------------------------------------------------

Before: HENDERSON, GARLAND and MILLETT, Circuit
Judges
JUDGMENT
This cause came on to be heard on the record on
appeal from the United States District Court for the
District of Columbia and was argued by counsel. On
consideration thereof, it is
ORDERED and ADJUDGED that the judgment
of the District Court appealed from in this cause be affirmed, in accordance with the opinion of the court filed
herein this date.
Per Curiam

14a
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk
Date: June 19, 2020
Opinion for the court filed by Circuit Judge Garland.

15a
UNITED STATES DISTRICT COURT
District of Columbia
UNITED STATES
OF AMERICA

JUDGMENT IN A
CRIMINAL CASE

V.

(Filed Oct. 18, 2018)

MICHAEL SANG HAN

Case Number:
15-cr-00142-JEB
USM Number: 09957-104
Danielle Courtney Jahn
and David Nasse
Defendant’s Attorney

THE DEFENDANT:
⬜ pleaded guilty to count(s)
⬜ pleaded nolo contendere to count(s)
which was accepted by the court.
🗹 was found guilty on count(s) 10s and 11s
after a plea of not guilty.

The defendants adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense

Offense
Ended

Count

26 USC § 7201

Tax Evasion

11/21/2011

10s

26 USC § 7201

Tax Evasion

10/10/2012

11s

16a
The defendant is sentenced as provided in pages 2
through 9 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
⬜ The defendant has been found not guilty on count(s)

🗹 Count(s) 1-9 and 12
⬜ is 🗹 are dismissed on the motion of the United
States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the
court and United States attorney of material changes
in economic circumstances.
10/17/2018
Date of Imposition of Judgment
James E. Boasberg
Signature of Judge
James E. Boasberg,
U.S. District Judge
Name and Title of Judge
10/18/18
Date

17a
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be imprisoned for a total term of: Forty Eight (48) months on
Counts 10s and 11s to run concurrent.
🗹

The court makes the following recommendations
to the Bureau of Prisons:
Federal Correctional Institute (FCI) Morgantown,
West Virginia
Federal Correctional Complex (FCC) Petersburg,
Virginia

⬜

The defendant is remanded to the custody of the
United States Marshal.

⬜

The defendant shall surrender to the United
States Marshal for this district:

🗹

⬜

at

⬜ a.m.

⬜ p.m. on

⬜

as notified by the United States Marshal

The defendant shall surrender for service of sentence at the institution designated by the Bureau
of Prisons:
⬜

before 2 p.m. on

🗹

as notified by the United States Marshal.

⬜

as notified by the Probation or Pretrial Services Office.

18a
RETURN
I have executed this judgment as follows:
a

Defendant delivered on
to
, with a certified copy of this judgment.
UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

ADDITIONAL IMPRISONMENT TERMS
Defendant may self surrender after December 15, 2018
(12/15/18).
SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
Thirty Six (36) months on Counts 10s and 11s to run
concurrent.
MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug
test within 15 days of release from imprisonment

19a
and at least two periodic drug tests thereafter, as
determined by the court.
🗹

The above drug testing condition is suspended, based on the court’s determination
that you pose a low risk of future substance
abuse. (check if applicable)

4.

🗹

You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other
statute authorizing a sentence of restitution.
(check if applicable)

5.

🗹

You must cooperate in the collection of DNA
as directed by the probation officer. (check if
applicable)

6.

⬜

You must comply with the requirements of the
Sex Offender Registration and Notification
Act (34 U.S.C. § 20901, et seq.) as directed by
the probation officer, the Bureau of Prisons, or
any state sex offender registration agency in
the location where you reside, work, are a student, or were convicted of a qualifying offense.
(check if applicable)

7.

⬜

You must participate in an approved program
for domestic violence. (check if applicable)

You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.

20a
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.
1.

You must report to the probation office in the federal judicial district where you are authorized to
reside within 72 hours of your release from imprisonment, unless the probation officer instructs you
to report to a different probation office or within a
different time frame.

2.

After initially reporting to the probation office, you
will receive instructions from the court or the probation officer about how and when you must report to the probation officer, and you must report
to the probation officer as instructed.

3.

You must not knowingly leave the federal judicial
district where you are authorized to reside without first getting permission from the court or the
probation officer.

4.

You must answer truthfully the questions asked
by your probation officer.

5.

You must live at a place approved by the probation
officer. If you plan to change where you live or anything about your living arrangements (such as
the people you live with), you must notify the probation officer at least 10 days before the change.

21a
If notifying the probation officer in advance is not
possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours
of becoming aware of a change or expected change.
6.

You must allow the probation officer to visit you at
any time at your home or elsewhere, and you must
permit the probation officer to take any items prohibited by the conditions of your supervision that
he or she observes in plain view.

7.

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you
do not have full-time employment you must try to
find full-time employment, unless the probation
officer excuses you from doing so. If you plan to
change where you work or anything about your
work (such as your position or your job responsibilities), you must notify the probation officer at
least 10 days before the change. If notifying the
probation officer at least 10 days in advance is not
possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours
of becoming aware of a change or expected change.

8.

You must not communicate or interact with someone you know is engaged in criminal activity. If
you know someone has been convicted of a felony,
you must not knowingly communicate or interact
with that person without first getting the permission of the probation officer.

9.

If you are arrested or questioned by a law enforcement officer, you must notify the probation officer
within 72 hours.

22a
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was designed, or
was modified for, the specific purpose of causing
bodily injury or death to another person such as
nunchakus or tasers).
11. You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12. If the probation officer determines that you pose a
risk to another person (including an organization),
the probation officer may require you to notify the
person about the risk and you must comply with
that instruction. The probation officer may contact
the person and confirm that you have notified the
person about the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with
a written copy of this judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature______________ Date _______

23a
SPECIAL CONDITIONS OF SUPERVISION
Within 72 hours of release from custody, you shall report in person to the probation office in the district to
which you are released. While on supervision, you shall
submit to collection of DNA, you shall not possess a
firearm or other dangerous. weapon, you shall not use
or possess an illegal controlled substance, and you
shall not commit another federal, state, or local crime.
You shall also abide by the general conditions of supervision adopted by the U.S. Probation Office, as well as
the following special conditions:
Restitution Obligation – Having assessed your ability
to pay, payment of the total criminal monetary penalties is due as follows: Payment in equal (monthly) installments of $100 over a period of (e.g., months or
years), to commence upon release.
Financial Payment – Because the judgment imposes a
financial penalty, you must pay the financial penalty in
accordance with the Schedule of Payments sheet of the
judgment. You must also notify the court of any
changes in economic circumstances that might affect
the ability to pay this financial penalty.
Financial Restrictions – You must not incur new credit
charges, or open additional lines of credit without the
approval of the probation officer.
Financial Information Disclosure – You must provide
the probation officer access to any requested financial
information and authorize the release of any financial

24a
information. The probation office may share financial
information with the United States Attorney’s Office.
Internal Revenue Service – You shall cooperate and arrange with the Internal Revenue Service to pay all
past and present taxes, interest, and penalties owed.
You shall file timely, accurate, and lawful income tax
returns and show proof of same to the Probation Office.
CRIMINAL MONETARY PENALTIES.
The defendant must pay the total criminal monetary penalties under the schedule of payments on
Sheet 6.
Assessment JVTA Fine
Assessment*
TOTALS $ 200.00

$

$

Restitution
$4,954,027.00

⬜

The determination of restitution is deferred until
________. An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such determination.

⬜

The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is
paid.

25a
Name of
Payee

Total Loss** Restitution Priority or
Ordered
Percentage

IRS RACS

$4,954,027.00

Attn: Mail Stop 6261, Restitution.
333 W. Pershing Avenue
Kansas City, MO 64108.
TOTALS

$ 0.00

$ 4,954,027.00

⬜

Restitution amount ordered pursuant to plea
agreement $ ________________

⬜

The defendant must pay interest on restitution
and a fine of more than $2,500, unless the restitution or fine is paid in full before the. fifteenth day
after the date of the judgment, pursuant to 18
U.S.C. § 3612(f ). All of the payment options on
Sheet 6 may be subject to penalties for delinquency and default, pursuant to 18 U.S.C.
§ 3612(g).

⬜

The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
⬜ the interest requirement is waived for the
⬜ fine

⬜ restitution.

⬜ the interest requirement for the ⬜ fine
⬜ restitution is modified as follows:
* Justice for Victims of Trafficking Act of 2015, Pub. L.
No. 114-22.

26a
** Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of Title 18
for offenses committed on or after September 13, 1994,
but before April 23, 1996.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties are due
as follows:
A 🗹 Lump sum payment of $ _200.00 _ due immediately, balance due
⬜ not later than

, or

🗹 in accordance ⬜ C, ⬜ D, ⬜ E, or 🗹 F below;
or
B ⬜ Payment to begin immediately (may be combined with ⬜ C, ⬜ D or, ⬜ F below); or
C ⬜ Payment in equal
(e.g., weekly, monthly,
quarterly) installments of $
over a period
of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the
date of this judgment; or
D ⬜ Payment in equal
(e.g., weekly, monthly,
quarterly) installments of $
over a period
of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release
from imprisonment to a term of supervision; or
E ⬜ Payment during the term of supervised release
will commence within
(e.g., 30 or 60 days)

27a
after release from imprisonment. The court will
set the payment plan based on an assessment of
the defendant’s ability to pay at that time; or
F 🗹 Special instructions regarding the payment of
criminal monetary penalties:
The restitution and special assessments are immediately payable to the Clerk of the Court for
the U.S. District Court, District of Columbia.
Within 30 days of any change of address, you
shall notify the Clerk of the Court of the change
until such time as the financial obligation is
paid in full. The Court waives any interest or
penalties that may accrue on unpaid balance.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during imprisonment. All criminal monetary penalties, except those
payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.
⬜ Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and corresponding payee, if appropriate.

28a
⬜ The defendant shall pay the cost of prosecution.
⬜ The defendant shall pay the following court cost(s):
⬜ The defendant shall forfeit the defendant’s interest in the following property to the United States:
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) JVTA assessment, (8) penalties,
and (9) costs, including cost of prosecution and court
costs.
DENIAL OF FEDERAL BENEFITS
(For Offenses Committed On or After
November 18, 1988)
FOR DRUG TRAFFICKERS PURSUANT TO 21
U.S.C. § 862
IT IS ORDERED that the defendant shall be:
⬜ ineligible for all federal benefits for a period of
_______________
⬜ ineligible for the following federal benefits for a
period of ____________
(specify benefit(s))
OR
⬜

Having determined that this is the defendant’s
third or subsequent conviction for distribution of
controlled substances, IT IS ORDERED that the

29a
defendant shall be permanently ineligible for all
federal benefits.
FOR DRUG POSSESSORS PURSUANT TO 21
U.S.C. § 862(b)
IT IS ORDERED that the defendant shall:
⬜

be ineligible for all federal benefits for a period of
____________________ .

⬜

be ineligible for the following federal benefits for a
period of ______________ .
(specify benefit(s))
⬜

successfully complete a drug testing and
treatment program.

⬜ perform community service, as specified in the
probation and supervised release portion of
this judgment.
⬜

Having determined that this is the defendant’s second or subsequent conviction for possession of a controlled substance, IT IS
FURTHER ORDERED that the defendant
shall complete any drug treatment program
and community service specified in this judgment as a requirement for the reinstatement
of eligibility for federal benefits.

Pursuant to 21 U.S.C. § 862(d), this denial of
federal benefits does not include any retirement,
welfare, Social Security, health, disability, veterans benefit, public housing, or other similar benefit, or any other benefit for which payments or

30a
services are required for eligibility. The clerk of
court is responsible for sending a copy of this
page and the first page of this judgment to:
U.S. Department of Justice, Office of Justice
Programs, Washington, DC 20531

31a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
--------------------------------------------- X
UNITED STATES OF AMERICA
v.

Criminal Case
No. 15-142

MICHAEL SANG HAN,
Defendant
--------------------------------------------- X

Washington, D.C.
Tuesday, May 8, 2018
9:33 a.m.
TRANSCRIPT OF JURY TRIAL – DAY 6
BEFORE THE HONORABLE JAMES E. BOASBERG
UNITED STATES DISTRICT JUDGE
APPEARANCES:
For the Government: Derrick L. Williams, AUSA
Denise A. Simmonds, AUSA
U.S. ATTORNEY’S OFFICE
FOR D.C.
555 Fourth Street, N.W.
Washington, D.C. 20530
(202) 252-7898
Sarah Caitlyn White Ranney, Esq.
U.S. DEPT. OF JUSTICE
Tax Division
601 D Street N.W., Room 7814
Washington, D.C. 20579
(202) 514-5616

32a
Court Reporter:

Lisa Walker Griffith, RPR
U.S. District Courthouse,
Room 6507
Washington, D.C. 20001
(202) 354-3247

[A239] LAURA MANION, GOVERNMENT WITNESS,
SWORN
THE DEPUTY CLERK:
THE WITNESS:

Please be seated.

Thank you.

DIRECT EXAMINATION
BY MS. RANNEY:
Q.

Good morning.

A.

Good morning.

Q. Would you please state your name and spell it
for the record?
A.

Yes. It’s Laura Manion, L-A-U-R-A, M-A-N-I-O-N.

Q.

Ms. Manion, what do you do for work?

A. I am revenue agent with the Internal Revenue Service.
Q. Can you give us a brief overview of your educational background?
A. Yes. I have a bachelor’s of science degree in accounting from Salisbury University.
Q. And can you give us a brief overview of your
employment history?

33a
A. Yes. I worked for a public accounting firm for
about a year and a half out of college, and then I have
worked with the IRS since October of 1994.
Q. And can you give us a brief overview of any
different positions that you’ve held at the IRS?
A.

Well, I’ve always been a revenue agent, just in

[A240] Q. What does it mean when you work on
the first type of cases you mentioned, things where
you’re not working on a criminal case?
A. Those are just civil type audits. So again, it’s
just going out and doing an audit, interviewing taxpayer, reviewing records and coming to a conclusion at
the end to determine the correct tax liability.
Q. And what does it mean when you work on
criminal cases?
A. When I’m on a criminal case as a cooperating
agent I’m there to assist the criminal investigation
side on their investigation. So I do anything from as
little as maybe just calculating the tax liability to
working all aspects of the case.
Q. Agent Manion, if you could help us out with a
few things as we get started. Is all money a person
might get in a year taxable?
A.

No, not all money is taxable.

Q.

What is taxable?

34a
A. Basically the law states that gross income is
all income unless it’s a specifically excluded from being
taxable.
Q.

And what is specifically excluded?

A. Things like gifts, maybe a student loan, a loan
from a bank, things like that are not taxable.
[A241] Q. Is the list of exclusions fairly long or is
it limited?
A.

It’s a pretty small list of nontaxable sources.

Q. Does a person need to report taxable income
to the IRS?
A.

Yes, they do.

Q.

How do they do that?

A. They would do that on a form 1040 individual
income tax return.
Q.

0why did they do that?

A. It is the law that you need to report your income to the IRS.
Q. And you mentioned just a moment ago student loans or loans from a bank aren’t included in taxable income. Are loans generally taxable?
A. No, if they are a legitimate loan, they are not
taxable.
Q. So, Agent Manion, what stops a taxpayer in
the United States from just claiming that all money

35a
they get in a year is a loan and therefore they don’t
have to pay tax on it?
A. If it’s something like, let’s say you have a job
and you get a W-2 at the end of the year, you obviously
can’t claim that’s a loan because it’s going to be reported to the IRS, and they’re going to compare your
tax return to what you [A242] reported. And so you will
get – they will find out that way, that it’s not a loan.
But other than that, if you chose not to report it on your
tax return, there would be no way for the IRS to know
unless an audit were performed or some type of investigation.
Q. And if there were an audit performed, how
would the IRS look to determine whether something
was a loan or whether it was actually income to the
person?
A. So, I, as an auditor, or as someone investigating would have to go in and look at the factors for a
loan to determine if it is a true loan. Obviously, speaking to the taxpayer themselves, maybe other people.
But just to determine if it truly is a loan.
Q. And you mentioned that there are some factors that you might look for. Can you tell us a bit about
what you might look for, factors to determine whether
something was a loan versus income?
A. Yes, I would look to see if there was a loan document. I would look to see if there were repayment
terms or repayments made on that loan. I would look
to see if there was interest being imputed on the loan.

36a
I would also look to see if there was any ability to
repay that loan. And I would also look to see if there
was any intent to repay the loan.
Q. Well, if you weren’t able to interview the taxpayer [A243] and get an honest assessment about intent, what are some indicia of intent that you might
look for?
A. I would look at kind of what the taxpayer did,
like his actions to me would show me if he intended to
repay that loan. Obviously, no repayments were ever
made, or if he didn’t have the ability to repay it, it
would give me the indication that it’s not a valid loan.
Q. Now, is any one factor that you just mentioned
determinative in the analysis for whether something
is income or a loan?
A. No, like I said, there’s numerous factors. And
they really have to be looked at as a whole to come up
with a clear decision on whether it’s a loan or not.
Q. Agent Manion, in the specific circumstances
where you’re talking about money coming from a business to a shareholder of that business, are there particular factors that you might look for in that type of
circumstance?
A. Yes, in that circumstance I would definitely
probably look to see the control that the person who
received the loan had over the company. If they had
sole control and ownership of the company, it would
lend it more to possibly it not being a loan. I would
probably look at the magnitude of the loan in

37a
comparison with the income of the company. So those
are a couple factors.
Q. You mentioned a couple of factors. Are there
[A244] additional factors that you might look for in the
specific circumstances?
A. Yes, I would also look to see if there was a loan
document in that regard as well, were there repayments, was there interest being imputed.
Q. I’d like to show you what’s been marked as
Government Exhibit 832.
A.

Okay.

Q.

If you could look at your screen there.

A.

Yes.

Q. Agent Manion, does this look like a list of factors that you put together relating to the specific circumstances of money coming from a small business to
a shareholder to determine whether those were loans
or income?
A.

Yes.

Q. And are these factors that you would apply in
the circumstances we just discussed?
A.

Yes, I would go through all of these.

MS. RANNEY:
ment Exhibit 832?

Move to admit as Govern-

MS. HIRZ: No objection, Your Honor.

38a
THE COURT:

Admitted.

(Government’s Exhibit No. 832 was received in evidence.)
MS. RANNEY:

If we could publish this to

the jury,
*

*

*

[A252] BY MS. HIRZ:
Q. This document says that Michael S. Han, the
individual, hereby promises to pay to the order of Mr.
Frank C. Carlucci the sum of $20 million with interest
thereon; is that right?
A.

Correct.

Q. So on the face of this document, it’s a personal
loan from Mr. Carlucci to Mr. Han?
A.

Yes, looking at the writing on that document,

yes.
Q. And you testified that the – you looked at the
prior documentation for Mr. Carlucci?
A.

Yes.

Q. And, in fact, this is the only document that
has Mr. Michael S. Han promising to pay Mr. Carlucci
back, right?
A.

Correct.

Q.

It’s unique in that way?

A.

Yes, the rest had Envion listed.

39a
MS. HIRZ: And if we could pull up Government Exhibit 327. And just blow up the same portion
of that document.
BY MS. HIRZ:
Q. And this also says Michael Han hereby promises to pay this time to the order of Mr. Jim Russell, the
sum of $2,300,000; is that right?
A.

Yes.

40a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
UNITED STATES
OF AMERICA,

Criminal Action
No. 1:15-cr-142

Plaintiff,

Washington, DC
May 8, 2018

vs.
MICHAEL SANG HAN,
Defendant.

2:17 p.m.
/

TRANSCRIPT OF JURY TRIAL
– DAY 6 – P.M. SESSION
BEFORE THE HONORABLE
JAMES E. BOASBERG
UNITED STATES DISTRICT COURT JUDGE
APPEARANCES:
For the Government: DERRICK L. WILLIAMS
DENISE A. SIMMONDS
U.S. Attorney’s Office for D.C.
555 Fourth Street, NW
Washington, DC 20530
(202) 252-7898
SARAH CAITLYN
WHITE RANNEY
U.S. Dept. of Justice
Tax Division
601 D Street NW, Room 7814
Washington, DC 20579
(202) 514-5616

41a
For the Defendant:

GABRIELLE G. HIRZ
DAVID A. NASSE
JONATHAN A. FOSTER
Ropes & Gray LLP
2099 Pennsylvania Avenue NW
Washington, DC 20006
(202) 626-3929

[A261] couldn’t all look at one.
THE COURT:

Okay, no problem.

(Jury present)
THE COURT: Welcome back, everybody.
We’re now ready to proceed with the defense case.
Ms. Jahn, does the defense wish to call any witnesses?
MS. JAHN:
be handling it.

We do, your Honor. Ms. Hirz will

THE COURT:
its first witness.

All right. So defense may call

MS. HIRZ: Thank you, your Honor. The defense calls Mr. Robert Hersh.
THE COURT:

Step on forward please, sir.

DEPUTY CLERK: Please remain standing
and raise your right hand. Do you solemnly swear or
affirm under the penalty of perjury that the testimony
you shall present to the jury and to the Court will be
the truth, the whole truth and nothing but the truth?

42a
THE WITNESS:

I do.

DEPUTY CLERK: Please be seated.
DIRECT EXAMINATION OF ROBERT HERSH
BY MS. HIRZ:
Q. Good afternoon, Mr. Hersh. Could you please
[A262] convertible loan notes that you reviewed.
Just as an initial matter, what forms can investments in a company take?
A. Investments can be direct investments in the
company as equity investments or it could be a loan
that you’re making to the company. That can also be an
investment in a company.
Q. So in connection with your work in this case,
did you review the various convertible loan notes issued by Envion to Mr. Frank Carlucci and Mr. James
Russell?
A.

Yes, I did.

Q. So were – I guess were those loans or were
those equity?
A. Were they loans or were they equity, it was –
as a convertible note, it really starts out as a loan. But
it could be repaid – instead of being repaid with cash,
it can be repaid with equity. So that’s the nature of the
convertible type of promissory note.

43a
Q. Are you aware of any evidence that the loans
were actually converted?
A.

No.

Q. And so long as the loans aren’t actually converted, they’re still debt, they’re still loans, is that
right?
A.

Right, so they’re classified as debt.

[A263] Q. And you also reviewed the $2.3 million
and $20,000,000 loan notes from 2010, is that right?
A.

Yes, I did.

Q. And what observations did you make about
how those loans were different from the prior loans?
A. The $20,000,000 loan from Mr. Carlucci and
the $2.3 million loan from Mr. Russell indicated the
borrower as Michael Han individually, personally.
Whereas the other loans prior to that loan, the other
loans indicated Envion, Inc. as the borrower or Envion
Industries as the borrower on these documents. They
may have been joint sometimes with Mr. Han, but very
– most often, it was either just Envion, Inc. or Envion
Industries as the borrower.
Q. So if there is a note where a person is making
a loan to an individual and that individual can repay
the loan either with cash or with shares they have in
the company, how is that treated initially for tax purposes?

44a
A. When a loan is made to an individual personally, that individual that receives the loan, the borrower, doesn’t have any income to report. There’s no
taxable income to report. When the loan is repaid, if it’s
repaid by cash, again, there’s no impact on that individual’s tax return.
If the loan is repaid by equity, you know, by shares
of stock in the company, then the borrower that [A264]
for in cash. So the question in my mind would be, you
know, was that source of funding in order to pay for
that house, is that taxable from taxable sources or from
non-taxable sources. There were large charitable contributions, particularly in 2011, like a $250,000 charitable contribution. Again, I would want to know, okay,
where did the money come from to make that charitable contribution. Because the income shown to me on
the tax organizer and other sources that he had really
just showed a W2 of over a couple hundred thousand
dollars.
BY MS. HIRZ:
Q. Was there any additional information on the
tax returns for Envion, Inc. that would have also led
you on a similar inquiry?
A. The fact that there were shareholder loans repaid during those years, again, where did the shareholder – where did Mr. Han come up with the money
to repay these loans; did it come from a taxable source
or a non-taxable source.

45a
Q. Was there any other explanation in the tax returns or the records from Mr. Pennington that would
have explained those items?
A.

No, I did not see any.

Q. Based on your review of documents in this
case, what do you think was the appropriate way to
account for [A265] these $2.3 million and $20,000,000
wire transfers made to Mr. Han in 2010?
A. I wouldn’t have reported those loans as taxable income in 2010 or 2011. The loan documents
themselves showed Mr. Han as being the borrower personally. There was a fax, facsimile that went from Mr.
Carlucci to his bankers at Morgan Stanley telling them
to wire transfer the $20,000,000 into Mr. Han’s personal account. There was an outgoing Morgan Stanley
wire authorization in which Mr. Carlucci signed that
this money was to be wired into Mr. Han’s personal account. There was a confirmation from Morgan Stanley
saying yes, we wired this money into Mr. Han’s personal account.
So those factors, in addition to the promissory note
itself that shows Mr. Han being a borrower personally,
would indicate that it was a personal note and proceeds received from personal loans are not taxable income.
MS. HIRZ:
a moment.

The Court’s indulgence for just

THE COURT:

You may.

46a
MS. HIRZ:
ness, your Honor.

No further questions of this wit-

THE COURT:

Thank you. Cross?

MS. RANNEY:

Yes, your Honor.

THE COURT:

All right.

47a
THIS NOTE AND THE SHARES OF CAPITAL
STOCK ISSUABLE UPON CONVERSION OF THIS
NOTE HAVE NOT BEEN REGISTERED UNDER
THE SECURITIES ACT OF 1933, AS AMENDED
(THE “ACT”), OR THE SECURITIES LAWS OF ANY
STATE. THIS NOTE, AND ANY OF SUCH SHARES
MAY NOT BE SOLD, OFFERED FOR SALE,
PLEDGED, HYPOTHECATED, OR OTHERWISE
TRANSFERRED IN THE ABSENCE OF REGISTRATION UNDER SAID ACT AND ALL OTHER APPLICABLE SECURITIES LAWS, OR UNLESS AN
EXEMPTION FROM REGISTRATION IS AVAILABLE.
CONVERTIBLE PROMISSORY NOTE
$20,000,000

October 10, 2010

FOR VALUE RECEIVED, MICHAEL S. HAN (the
“Individual”), a Individual, hereby promises to pay to
the order of Mr. Frank C. Carlucci (the “Holder”) the
sum of Twenty Million Dollars Only ($20,000,000) with
interest thereon from the date of issuance of this Note
at the rate set forth in Section 1.1 hereof. All payments
to be made by the Individual in repayment of interest
and principal hereunder shall be made in currency of
the United States of America which at the time of payment shall be legal tender for the payment of public or
private debts.

48a
1.

PAYMENTS OF PRINCIPAL AND INTEREST.

1.1 Rate of Interest. For the period from the date
hereof until all sums due hereunder, whether principal, interest, charges, fees or other sums, have been
paid in full, interest shall accrue on the unpaid principal balance of this Note at the simple rate of eight percent (8.00%) per annum. Interest on the outstanding
principal balance of the Note will be computed on the
basis of a 365-day year.
1.2 Principal and Interest Payment. Unless converted into shares of the Individual’s capital stock in
accordance with Section 3 hereof, the total amount of
principal due under this Note and all accrued and unpaid interest thereon shall be paid in a single lump
sum by the Individual.
2.

PREPAYMENTS PRIOR TO MATURITY.

Notwithstanding any other provisions of this
Note, the Individual may prepay the Note in whole or
in part at any time without penalty. Any prepayments
received with respect to this Note shall first be applied
to the accrued but unpaid interest then outstanding,
with the remainder, if any, applied to principal.
3.

CONVERSION OF NOTE.

3.1 Optional Conversion. The principal amount
and all accrued and unpaid interest owing under this
Note may be converted on the Maturity Date or thereafter (if this Note is not paid on the Maturity Date), in
whole, into fully paid and non-assessable shares of the
Individual’s common stock (“Common Stock”) as

49a
provided below. In the event that the Holder wishes to
convert this Note into Common Stock, the Holder shall
provide the Individual with notice (the “Conversion
Notice”), at least fifteen (15) days prior to the Maturity
Date, that the Holder wishes to convert the Note into
shares of Common Stock. Following receipt of the Conversion Notice, the Individual shall have the option of
either: (i) converting, on the Maturity Date, the principal amount and all accrued and unpaid interest owing
into Common Stock per share (which is based on a Individual valuation of $23,000,000,000 and at the Individual’s capitalization as of the date hereof ); or (ii)
electing to prepay the Note prior to the Maturity Date
in accordance with Section 2.
3.2 Fractional Shares. No fractional shares of
capital stock shall be issued upon conversion of this
Note. Instead of any fractional share that would otherwise be issuable upon conversion of this Note, the Individual shall pay a cash adjustment in respect of such
fractional interest in an amount equal to the fair market value of such fractional interest as determined by
the Board of Directors (whose good faith determination
shall be conclusive).
3.3 Individual to Provide Stock. The Individual
shall at all times reserve and keep available out of the
aggregate of its authorized but unissued capital stock
or its issued capital stock held in its treasury, or both,
for the purpose of effecting the conversion of this Note,
such number of shares of capital stock or as shall then
be issuable upon the conversion of this Note. The Individual covenants that all shares of capital stock issued

50a
on conversion of this Note shall be duly and validly issued and fully paid and non-assessable and free from
all taxes, liens and charges with respect to the issue
thereof.
4.

EVENTS OF DEFAULT.

4.1 Events of Default Defined. The principal and
interest due and owing on this Note will become immediately due and payable, at the option and only upon
the consent of the Majority Holders, without notice, demand, protest, notice of protest and notice of default
(other than as provided herein) presentment for payment and diligence in collection, all of which are expressly waived, if the Individual shall (i) breach any of
its obligations under this Note; (ii) admit in writing its
inability to pay its debts generally as they become due,
(iii) file a petition in bankruptcy or petition to take advantage of any insolvency act, (iv) make an assignment
for the benefit of its creditors, (v) consent to the appointment of a receiver of itself or of the whole of any
substantial part of its property, (vi) on a petition in
bankruptcy filed against it, be adjudicated as a bankrupt, (vii) file a petition or answer seeking reorganization or arrangement under the federal bankruptcy
laws or any other applicable law or statute of the
United States of America or any state thereof, or (viii)
distribute any of its assets upon any dissolution, winding up, liquidation or reorganization of the Individual.
For purposes hereof, each of the above events is hereafter referred to as an “Event of Default”.

51a
4.2 Notification. If an Event of Default as defined
above shall occur, the Individual will notify the Holder
promptly in writing by mail of the Event of Default describing it in reasonable detail, including a statement
of the nature and length of existence thereof, and what
action the Individual proposes to take with respect
thereto.
5. SUITS FOR ENFORCEMENT UPON DEFAULT.
If an Event of Default shall have occurred, then
and in any such event the Holder may, at any time at
its option, declare the principal of and the accrued interest due under the Note to be due and payable,
whereupon the same shall forthwith mature and become due and payable without demand, protest, notice
of protest and notice of default, presentment for payment and diligence in collection, all of which are
hereby expressly waived by the Individual. In case any
Event of Default shall occur, the Holder may proceed
to protect and enforce its rights hereunder by a suit in
equity, action at law or other appropriate proceeding.
No course of dealing and no delay on the part of the
Holder in exercising any rights shall operate as a
waiver thereof or otherwise prejudice their rights and
no consent or waiver shall extend beyond the particular case involved.
6.

NOTICES.

Any request, demand, authorization, direction, notice, consent, waiver or other document permitted by
this Note to be made upon, given or furnished to, or

52a
filed with the Individual or the Holder shall be sufficient for every purpose hereunder if in writing and
mailed to the Individual, addressed to it at 1027 33rd
Street, Washington, DC 20007 (or such subsequent address as the Individual shall advise the Holder hereof
in writing) and if to the Holder at the address at which
payments are being made (or at such further address
as the Holder hereof shall advise the Individual in
writing). All notices required hereunder shall be
deemed to have been given or made when actually delivered to or received by the party to which the notice
is addressed at its respective address.
7. MUTILATION, DESTRUCTION, LOSS, OR
REISSUANCE.
7.1 Mutilation. This Note, if mutilated, may be
surrendered and thereupon the Individual shall execute and deliver in exchange therefore a new Note of
like tenor and principal amount.
7.2 Destruction, Loss, Etc. If there is delivered to
the Individual (i) evidence of the destruction, loss, or
theft of this Note and (ii) such indemnity as may be
required by it to save it harmless, then, in the absence
of notice to the Individual that this Note has been acquired by a bona fide purchaser, the Individual shall
execute and deliver in lieu of such destroyed, lost or
stolen Note, a new Note of like tenor and principal
amount.

53a
8.

SUCCESSORS.

All of the covenants, stipulations, promises and
agreements in this Note contained by or on behalf of
the Individual shall bind and inure to the benefit of its
successors whether so expressed or not and also to the
benefit of the Holder and its successors.
9.

GOVERNING LAW.

This Note shall be deemed to be a contract made
under the laws of the Commonwealth of Virginia and
for all purposes shall be construed in accordance with
the laws of such state.
10.

TRANSFERABILITY OF NOTE.

This Note and the shares of capital stock issuable
upon conversion hereof are not transferable except
pursuant to an effective registration statement under
the Securities Act of 1933, as amended, or unless an
exemption from the registration provisions of such Act
is applicable.
[Remainder of Page Intentionally Left Blank]

54a
IN WITNESS WHEREOF, the Individual has
caused this Note to be executed in its individual name
by its duly authorized officers and to be dated as of the
day and year first above written.
INDIVIDUAL
By: /s/ Michael Han
Michael Han
FCC’s Copy
THIS NOTE AND THE SHARES OF CAPITAL
STOCK ISSUABLE UPON CONVERSION OF THIS
NOTE HAVE NOT BEEN REGISTERED UNDER
THE SECURITIES ACT OF 1933, AS AMENDED
(THE “ACT”), OR THE SECURITIES LAWS OF ANY
STATE. THIS NOTE, AND ANY OF SUCH SHARES
MAY NOT BE SOLD, OFFERED FOR SALE,
PLEDGED, HYPOTHECATED, OR OTHERWISE
TRANSFERRED IN THE ABSENCE OF REGISTRATION UNDER SAID ACT AND ALL OTHER APPLICABLE SECURITIES LAWS, OR UNLESS AN
EXEMPTION FROM REGISTRATION IS AVAILABLE.
CONVERTIBLE PROMISSORY NOTE
$900,000

August 1, 2008

FOR VALUE RECEIVED, ENVION, INC. (the
“Company”), a Delaware Corporation, hereby promises
to pay to the order of Mr. Frank Carlucci (the “Holder”)
the sum of Nine Hundred Thousand Only ($900,000)
with interest thereon from the date of issuance of this

55a
Note at the rate set forth in Section 1.1 hereof. All payments to be made by the Company in repayment of interest and principal hereunder shall be made in
currency of the United States of America which at the
time of payment shall be legal tender for the payment
of public or private debts.
1.

PAYMENTS OF PRINCIPAL AND INTEREST.

1.1 Rate of Interest. For the period from the date
hereof until all sums due hereunder, whether principal, interest, charges, fees or other sums, have been
paid in full, interest shall accrue on the unpaid principal balance of this Note at the simple rate of eight percent (8.00%) per annum. Interest on the outstanding
principal balance of the Note will be computed on the
basis of a 365-day year.
1.2 Principal and Interest Payment. Unless converted into shares of the Company’s capital stock in accordance with Section 3 hereof, the total amount of
principal due under this Note and all accrued and unpaid interest thereon shall be paid in a single lump
sum by the Company on October 1, 2008 (the “Maturity
Date”).
2.

PREPAYMENTS PRIOR TO MATURITY.

Notwithstanding any other provisions of this
Note, the Company may prepay the Note in whole or
in part at any time without penalty. Any prepayments
received with respect to this Note shall first be applied
to the accrued but unpaid interest then outstanding,
with the remainder, if any, applied to principal.

56a
3.

CONVERSION OF NOTE.

3.1 Optional Conversion. The principal amount
and all accrued and unpaid interest owing under this
Note may be converted on the Maturity Date or thereafter (if this Note is not paid on the Maturity Date), in
whole, into fully paid and non-assessable shares of the
Company’s common stock (“Common Stock”) as provided below. In the event that the Holder wishes to convert this Note into Common Stock, the Holder shall
provide the Company with notice (the “Conversion Notice”), at least fifteen (15) days prior to the Maturity
Date, that the Holder wishes to convert the Note into
shares of Common Stock. Following receipt of the Conversion Notice, the Company shall have the option of
either: (i) converting, on the Maturity Date, the principal amount and all accrued and unpaid interest owing
into Common Stock per share (which is based on a
Company valuation of $175,000,000 and at the Company’s capitalization as of the date hereof ); or (ii) electing to prepay the Note prior to the Maturity Date in
accordance with Section 2.
3.2 Fractional Shares. No fractional shares of
capital stock shall be issued upon conversion of this
Note. Instead of any fractional share that would otherwise be issuable upon conversion of this Note, the Company shall pay a cash adjustment in respect of such
fractional interest in an amount equal to the fair market value of such fractional interest as determined by
the Board of Directors (whose good faith determination
shall be conclusive).

57a
3.3 Company to Provide Stock. The Company
shall at all times reserve and keep available out of the
aggregate of its authorized but unissued capital stock
or its issued capital stock held in its treasury, or both,
for the purpose of effecting the conversion of this Note,
such number of shares of capital stock or as shall then
be issuable upon the conversion of this Note. The Company covenants that all shares of capital stock issued
on conversion of this Note shall be duly and validly issued and fully paid and non-assessable and free from
all taxes, liens and charges with respect to the issue
thereof.
4.

EVENTS OF DEFAULT.

4.1 Events of Default Defined. The principal and
interest due and owing on this Note will become immediately due and payable, at the option and only upon
the consent of the Majority Holders, without notice, demand, protest, notice of protest and notice of default
(other than as provided herein) presentment for payment and diligence in collection, all of which are expressly waived, if the Company shall (i) breach any of
its obligations under this Note; (ii) admit in writing its
inability to pay its debts generally as they become due,
(iii) file a petition in bankruptcy or petition to take advantage of any insolvency act, (iv) make an assignment
for the benefit of its creditors, (v) consent to the appointment of a receiver of itself or of the whole of any
substantial part of its property, (vi) on a petition in
bankruptcy filed against it, be adjudicated as a bankrupt, (vii) file a petition or answer seeking reorganization or arrangement under the federal bankruptcy

58a
laws or any other applicable law or statute of the
United States of America or any state thereof, or (viii)
distribute any of its assets upon any dissolution, winding up, liquidation or reorganization of the Company.
For purposes hereof, each of the above events is hereafter referred to as an “Event of Default".
4.2 Notification. If an Event of Default as defined
above shall occur, the Company will notify the Holder
promptly in writing by mail of the Event of Default describing it in reasonable detail, including a statement
of the nature and length of existence thereof, and what
action the Company proposes to take with respect
thereto.
5. SUITS FOR ENFORCEMENT UPON DEFAULT.
If an Event of Default shall have occurred, then
and in any such event the Holder may, at any time at
its option, declare the principal of and the accrued interest due under the Note to be due and payable,
whereupon the same shall forthwith mature and become due and payable without demand, protest, notice
of protest and notice of default, presentment for payment and diligence in collection, all of which are
hereby expressly waived by the Company. In case any
Event of Default shall occur, the Holder may proceed
to protect and enforce its rights hereunder by a suit in
equity, action at law or other appropriate proceeding.
No course of dealing and no delay on the part of the
Holder in exercising any rights shall operate as a
waiver thereof or otherwise prejudice their rights and

59a
no consent or waiver shall extend beyond the particular case involved.
6.

NOTICES.

Any request, demand, authorization, direction, notice, consent, waiver or other document permitted by
this Note to be made upon, given or furnished to, or
filed with the Company or the Holder shall be sufficient for every purpose hereunder if in writing and
mailed to the Company, addressed to it at 1054 31st
Street, Suite 300, Washington, D.C. 20007 (or such subsequent address as the Company shall advise the
Holder hereof in writing) and if to the Holder at the
address at which payments are being made (or at such
further address as the Holder hereof shall advise the
Company in writing). All notices required hereunder
shall be deemed to have been given or made when actually delivered to or received by the party to which
the notice is addressed at its respective address.
7. MUTILATION, DESTRUCTION, LOSS, OR
REISSUANCE.
7.1 Mutilation. This Note, if mutilated, may be
surrendered and thereupon the Company shall execute and deliver in exchange therefore a new Note of
like tenor and principal amount.
7.2 Destruction, Loss, Etc. If there is delivered to
the Company (i) evidence of the destruction, loss, or
theft of this Note and (ii) such indemnity as may be
required by it to save it harmless, then, in the absence
of notice to the Company that this Note has been

60a
acquired by a bona fide purchaser, the Company shall
execute and deliver in lieu of such destroyed, lost or
stolen Note, a new Note of like tenor and principal
amount.
8.

SUCCESSORS.

All of the covenants, stipulations, promises and
agreements in this Note contained by or on behalf of
the Company shall bind and inure to the benefit of its
successors whether so expressed or not and also to the
benefit of the Holder and its successors.
9.

GOVERNING LAW.

This Note shall be deemed to be a contract made
under the laws of the Commonwealth of Virginia and
for all purposes shall be construed in accordance with
the laws of such state.
10.

TRANSFERABILITY OF NOTE.

This Note and the shares of capital stock issuable
upon conversion hereof are not transferable except
pursuant to an effective registration statement under
the Securities Act of 1933, as amended, or unless an
exemption from the registration provisions of such Act
is applicable.
[Remainder of Page Intentionally Left Blank]

61a
IN WITNESS WHEREOF, the Company has
caused this Note to be executed in its corporate name
by its duly authorized officers and to be dated as of the
day and year first above written.
ENVION, INC.
By:
/s/ Michael Han
Michael Han
THIS NOTE AND THE SHARES OF CAPITAL
STOCK. ISSUABLE UPON CONVERSION OF THIS
NOTE HAVE NOT BEEN REGISTERED UNDER
THE SECURITIES ACT OF 1933. AS AMENDED
(THE “ACT”), OR THE SECURITIES LAWS OF ANY
STATE. THIS NOTE AND ANY OF SUCH SHARES
MAY NOT BE SOLD, OFFERED FOR SALE,
FLEDGED, HYPOTHECATED, OR OTHERWISE
TRANSFERRED IN THE ABSENCE OF REGISTRATION UNDER SAID ACT AND ALL OTHER APPLICABLE SECURITIES LAWS, OR UNLESS AN
EXEMPTION FROM REGISTRATION IS AVAILABLE:
April 16, 2012
CONVERTIBLE PROMISSORY NOTE
Whereas,
•

James E. Russell (the Holder) has issued in
favor of Envion, Inc. (the “Company”) the following convertible promissory notes, for the
following values and on the following dates
(the “Former Notes”):

62a

•

o

Note from 7/20/2007 for $200,000

o

Note from 12/4/2007 for $210,000

o

Note from 2/27/2008 for $1,000,000

o

Note from 8/1/2008 for $2,000,000

o

Note from 12/19/2008 for $400,000

o

Note from 2/16/2009 for $500,000

o

Note from 4/14/2009 for $250,000

o

Note from 6/3/2009 for $500,000

o

Note paid by the Holder to Mr. Michael
S. Han on or around July 2010 for
$2,300,000

The Holder and Company have agreed to renew those notes and extend the maturity term
thereto by duly executing this agreement (the
“New Note”) that supersedes and replaces the
Former Notes for any matter.

Now, therefore, after friendly consultations and proceeding on principles of fairness and equality, the parties hereto have agreed the following on this 16th day
of April of 2012:
1. ISSUANCE OF THE NEW NOTE AND SUPERSEDING EFFECT
1.1 For value received the Company hereby
promises to pay to the order of the Holder the sum of
Seven Million Three Hundred Sixty Thousand Dollars
Only($7,360,000) by December 31, 2012 (the “Maturity
Date”) with interest thereon from the date of issuance

63a
of this New Note.at the rate set forth in Section 2.1
hereof All payments to be made by the Company in repayment of interest and principal hereunder shall be
made in currency of the United States of America
which at the time of payment shall be legal tender for
the payment of public or private debts.
1.2 The New Note shall supersede and replace
all the promissory notes that the Holder has issued up
to the date of execution of this agreement in favor of
the Company and/or of Michael S. Han. leaving without any effect those promissory notes, except as otherwise stated herein.
2.

PAYMENTS OF PRINCIPAL AND INTEREST.

2.1 Rate of Interest. For the period from the date
hereof until all sums due hereunder, whether principal, interest, charges, fees or other sums, have been
paid in full, interest shall accrue on the unpaid principal balance of this. New Note at the simple-rate of
eight percent (8.00%) per annum. Interest on the outstanding principal balance of the New Note will be
competed on the basis of a 365-day year. The amounts
already paid by the Company as interests for the Former Notes before the execution of the New Note shall
be correspondingly deducted, (including the payment
for $110,000 made on or around December 23, 2012).
Any interest corresponding to the Fortner Notes not
paid at the present date shall be still due.
2.2 Principal and Interest Payment. Unless converted into shares of the Company’s capital stock in accordance with Section 4 hereof, the total amount of

64a
principal due under this New Note and all accrued and
unpaid interest thereon shall be paid in it single lump
sum by the Company. However, the Company may opt
for paying interests by installments before the Maturity Date.
3.

PREPAYMENTS PRIOR TO MATURITY.

Notwithstanding any other provisions of this New
Note, the Company may prepay the New Note in whole
or in part at any time without penalty. Any prepayments received with respect to this New Note shall
first be applied to the accrued but unpaid interest then
outstanding, with the remainder, if any, applied to
principal.
4.

CONVERSION OF NEW NOTE.

4.1 Optional Conversion. The principal amount
and all accrued and unpaid interest owing under this
New Note may be converted on the Maturity Date or
thereafter (if this New Note is not paid on the Maturity
Date), in whole, into fully paid and non-assessable
shares of the Company’s common stock (“Common
Stock”) as provided below. In the event that the Holder
wishes to convert this New Note into Common Stock,
the Holder shall provide the Company with notice (the
“Conversion Notice”), at least fifteen (15) days prior to
the Maturity Date, that the-Holder wishes to convert
the New Note into shares of Common Stock. Following
receipt of the Conversion Notice, the Company shall
have the option of either: (i) converting, on the Maturity Date, the principal amount and all accrued and
unpaid interest owing into Common Stock per share

65a
(which shall be based on a Company valuation of
$4,000,000,000 and at the Company’s capitalization as
of the date hereof ); or (ii) electing.to prepay the New
Note prior to the Maturity Date in accordance with
Section 3.
4.2 Fractional Shares. No fractional shares of
capital stock shall be issued upon conversion of this
New Note. Instead of any fractional share that would
otherwise be issuable upon conversion of this New
Note, the Company shall pay a cash adjustment in respect of such fractional interest in an amount equal to
the fair market value of such fractional interest as determined by the Board of Directors (whose good faith
determination shall be conclusive).
4.3 Company to Provide: Stock. The Company
shall at all times reserve and keep available out of the
aggregate of its authorized but unissued capital stock
or its issued capital stock held in its treasury, or both,
for the purpose of effecting the conversion of this New
Note, such number of shares of capital stock or as shall
then be issuable upon the conversion of this New Note.
The Company covenants that all shares of capital stock
issued on conversion of this New Note shall be duly
and validly issued and fully paid and non-assessable
and free from all taxes, liens-and charges with respect
to the issue thereof.
5.

EVENTS OF DEFAULT.

5.1 Events of Default Defined. The principal and
interest due and owing on. this New Note will become
immediately due and payable, at the option and only

66a
upon the consent of the Majority Holders, without notice, demand, protest, notice of protest and notice of default (other than as provided herein) presentment for
payment and diligence in collection, all of which are
expressly waived, if the Company shall (i) breach any
of its obligations under this New Note; (ii) admit in
writing its inability to pay its debts generally as they
become due, (iii) file a petition in bankruptcy or petition to take advantage of any insolvency act, (iv) make
an assignment for the benefit of its creditors,. (v) consent to the appointment of a receiver of itself or of the
whole of any substantial part of its property, (vi) on a
petition in bankruptcy filed against it, be adjudicated
as a bankrupt, (vii) file a petition or answer seeking
reorganization or arrangement under the federal
bankruptcy laws or any other applicable law or statute
of the United States of America or any state thereof, or
(viii) distribute any of its assets upon any dissolution,
winding up, liquidation or reorganization of the Company. For purposes hereof, each of the above events is
hereafter referred tons an “Event of Default’.
5.2 Notification. If. an Event of Default as defined above shall occur, the Company will notify the
Holder promptly in wilting by mail of the Event of Default describing it in reasonable detail, including a
statement of the nature and length of existence
thereof, and what action. the Company proposes to
take with respect thereto.

67a
6. SUITS FOR ENFORCEMENT UPON DEFAULT.
If an Event of Default shall have occurred, then
and in any such event the Holder may, at any time at
its option, declare the principal of and the accrued interest due under the New Note to be due and payable,
whereupon the same shall forthwith mature and become due and payable without demand, protest, notice
of protest and notice of default, presentment for payment and diligence in collection, all of which are
hereby expressly waived by the Company. In case any
Event of Default shall occur, the Holder may proceed
to protect and enforce its rights hereunder by a suit in
equity, action at law or other appropriate proceeding.
No course of dealing and no delay on the part of the
Holder in exercising any rights shall operate as a
waiver thereof or otherwise prejudice their rights and
no consent or waiver shall extend beyond the particular case involved.
7.

NOTICES.

Any request, demand, authorization, direction, notice, consent, waiver or other document permitted by
this New Note to be made upon, given or furnished to
or filed with the Company or the Holder shall be sufficient for every purpose hereunder if in writing and
mailed to the Company, addressed to it at 510 Evernia
Street, West Palm Beach, Florida 33401 (or such subsequent address as the Company shall advise the
Holder hereof in writing) and if to the Holder at the
address at which payments are being made (or at such

68a
further address as the Holder hereof shall advise the
Company in writing). All notices required hereunder
shall be deemed to have been given or made when actually delivered to or received by the party to which
the notice is addressed at its respective address.
8. MUTILATION, DESTRUCTION, LOSS, OR
REISSUANCE.
8.1 Mutilation. This New Note, if mutilated, may
be surrendered and thereupon the Company shall execute and deliver in exchange therefore a new Note of
like tenor and principal amount.
8.2 Destruction, Loss, Etc. If there is delivered
to the Company (i) evidence of the destruction, loss, or
theft of this New Note and (ii) such indemnity as may
be required by it to save it harmless, then; in the absence of notice to the Company that this New Note has
been acquired by a bona fide purchaser, the Company
shall execute and deliver in lieu of such destroyed, lost
or stolen New Note, a new Note of like tenor and principal amount.
9.

SUCCESSORS.

All of the covenants, stipulations, promises and
agreements in this New Note contained by or on behalf
of the Company shall bind and insure to the benefit of
its successors whether so expressed or not and also to,
the benefit of the Holder and its successors.

69a
10.

GOVERNING LAW.

This New Note shall be deemed to be a contract
made under the laws of the Commonwealth of Virginia
and for all purposes shall be construed in accordance
with the laws of such state.
11.

TRANSFERABILITY OF NEW NOTE.

This New Note and the shares of capital stock issuable upon conversion hereof are not transferable except pursuant to an effective registration statement
under the Securities Act of 1933, as amended, or unless
an exemption from the registration provisions of such
Act is applicable.
[Remainder of Page Intentionally Left Blank]

70a
IN WITNESS WHEREOF, the parties hereto have
caused this New Note to the duly executed by their
proper and duly authorized representative as of the
day and year first above written:
ENVION, INC.

JAMES E. RUSSELL

By: /s/ Michael Han Signature: /s/ James E. Russell
Signature: /s/ Michael Han

Date: April 16, 2012

Title: CEO
Date: April 16, 2012
Envion Investment Summary
Jim Russell
January 15, 2010

Date

Check
Amount

Envion Note/
M Han
Co.
Option
Valuation

June 20, 2007 $200,000

$200,000

$150,000

Sept 14, 2007 $200,000

$200,000

$150,000

Dec 4,2007

$210,000

$210,000

$150,000

Feb 27, 2008

$1,000,000 $1,000,000

$150,000

Aug 1, 2008

$2,000,000 $2,000,000

$150,000

Dec 21, 2008

$400,000

$400,000

$200,000

Dec 19, 2008

Note 1

$500,000

$200,000

Feb 15, 2009

$500,000

$1,000,000

$200,000

Apr13, 2009

$250,000

$500,000

$200,000

May 31, 2009 $500,000
Totals

$1,000,000

$5,260,000 $7,010,000

71a
Note 1-Michael Han Option grant agreement with
James A Russell, son as part of $400,000 investment
and check of Dec 19, 2008. Since I have separately
established a GRAT with an Envion promissory note
with my son as beneficiary, I want distributions from
this option grant agreement made to myself.
THIS NOTE AND THE SHARES OF CAPITAL
STOCK ISSUABLE UPON CONVERSION OF THIS
NOTE HAVE NOT BEEN REGISTERED UNDER
THE SECURITIES ACT OF 1933, AS AMENDED
(THE “ACT”), OR THE SECURITIES LAWS OF ANY
STATE. THIS NOTE, AND ANY OF SUCH SHARES
MAY NOT BE SOLD, OFFERED FOR SALE,
PLEDGED, HYPOTHECATED, OR OTHERWISE
TRANSFERRED IN THE ABSENCE OF REGISTRATION UNDER SAID ACT AND ALL OTHER APPLICABLE SECURITIES LAWS, OR UNLESS AN
EXEMPTION FROM REGISTRATION IS AVAILABLE.
CONVERTIBLE PROMISSORY NOTE
$2,300,000

July 9, 2010

FOR VALUE RECEIVED, MICHAEL S. HAN (the
“Individual”), hereby promises to pay to the order of
Mr. Jim Russell (the “Holder”) the sum of Two Million
Three Hundred Thousand Dollars Only ($2,300,000)
with interest thereon from the date of issuance of this
Note at the rate set forth in Section 1.1 hereof. All payments to be made by the Individual in repayment of
interest and principal hereunder shall be made in

72a
currency of the United States of America which at the
time of payment shall be legal tender for the payment
of public or private debts.
1.

PAYMENTS OF PRINCIPAL AND INTEREST.

1.1 Rate of Interest. For the period from the date
hereof until all sums due hereunder, whether principal, interest, charges, fees or other sums, have been
paid in full, interest shall accrue on the unpaid principal balance of this Note at the simple rate of eight percent (8.00%) per annum. Interest on the outstanding
principal balance of the Note will be computed on the
basis of a 365-day year.
1.2 Principal and Interest Payment. Unless converted into shares of the Individual’s capital stock in
accordance with Section 3 hereof, the total amount of
principal due under this Note will total up to
$10,000,000 including all accrued and unpaid interest
thereon paid in a single lump sum by the Individual on
September 10, 2010 (the “Maturity Date”).
2.

PREPAYMENTS PRIOR TO MATURITY.

Notwithstanding any other provisions of this
Note, the Individual may prepay the Note in whole or
in part at any time without penalty. Any prepayments
received with respect to this Note shall first be applied
to the accrued but unpaid interest then outstanding,
with the remainder, if any, applied to principal.

73a
3.

CONVERSION OF NOTE.

3.1 Optional Conversion. The principal amount
and all accrued and unpaid interest owing under this
Note may be converted on the Maturity Date or thereafter (if this Note is not paid on the Maturity Date), in
whole, into fully paid and non-assessable shares of the
Individual’s common stock (“Common Stock”) as provided below. In the event that the Holder wishes to convert this Note into Common Stock, the Holder shall
provide the Individual with notice (the “Conversion
Notice”), at least fifteen (15) days prior to the Maturity
Date, that the Holder wishes to convert the Note into
shares of Common Stock. Following receipt of the Conversion Notice, the Individual shall have the option of
either: (i) converting, on the Maturity Date, the principal amount and all accrued and unpaid interest owing
into Common Stock per share (which is based on a Individual valuation at the Individual’s capitalization as
of the date hereof ); or (ii) electing to prepay the Note
prior to the Maturity Date in accordance with Section
2.
3.2 Individual to Provide Stock. The Individual
shall at all times reserve and keep available out of the
aggregate of its authorized but unissued capital stock
or its issued capital stock held in its treasury, or both,
for the purpose of effecting the conversion of this Note,
such number of shares of capital stock or as shall then
be issuable upon the conversion of this Note. The Individual covenants that all shares of capital stock issued
on conversion of this Note shall be duly and validly issued and fully paid and non-assessable and free from

74a
all taxes, liens and charges with respect to the issue
thereof.
4.

EVENTS OF DEFAULT.

4.1 Events of Default Defined. The principal and
interest due and owing on this Note will become immediately due and payable, upon the consent of the Majority Holder, without notice, demand, protest, notice of
protest and notice of default (other than as provided
herein) presentment for payment and diligence in collection, all of which are expressly waived, if the Individual shall (i) breach any of its obligations under this
Note; (ii) admit in writing its inability to pay its debts
generally as they become due, (iii) file a petition in
bankruptcy or petition to take advantage of any insolvency act, (iv) make an assignment for the benefit of
its creditors, (v) consent to the appointment of a receiver of itself or of the whole of any substantial part
of its property, (vi) on a petition in bankruptcy filed
against it, be adjudicated as a bankrupt, (vii) file a petition or answer seeking reorganization or arrangement under the federal bankruptcy laws or any other
applicable law or statute of the United States of America or any state thereof, or (viii) distribute any of its
assets upon any dissolution, winding up, liquidation or
reorganization of the Individual. For purposes hereof,
each of the above events is hereafter referred to as an
“Event of Default".
4.2 Notification. If an Event of Default as defined
above shall occur, the Individual will notify the Holder
promptly in writing by mail of the Event of Default

75a
describing it in reasonable detail, including a statement of the nature and length of existence thereof, and
what action the Individual proposes to take with respect thereto.
5. SUITS FOR ENFORCEMENT UPON DEFAULT.
If an Event of Default shall have occurred, then
and in any such event the Holder may, at any time at
its option, declare the principal of and the accrued interest due under the Note to be due and payable,
whereupon the same shall forthwith mature and become due and payable without demand, protest, notice
of protest and notice of default, presentment for payment and diligence in collection, all of which are
hereby expressly waived by the Individual. In case any
Event of Default shall occur, the Holder may proceed
to protect and enforce its rights hereunder by a suit in
equity, action at law or other appropriate proceeding.
No course of dealing and no delay on the part of the
Holder in exercising any rights shall operate as a
waiver thereof or otherwise prejudice their rights and
no consent or waiver shall extend beyond the particular case involved.
6.

NOTICES.

Any request, demand, authorization, direction, notice, consent, waiver or other document permitted by
this Note to be made upon, given or furnished to, or
filed with the Individual or the Holder shall be sufficient for every purpose hereunder if in writing and
mailed to the Individual, addressed to it at 1027 33rd

76a
Street, Washington, DC 20007 (or such subsequent address as the Individual shall advise the Holder hereof
in writing) and if to the Holder at the address at which
payments are being made (or at such further address
as the Holder hereof shall advise the Individual in
writing). All notices required hereunder shall be
deemed to have been given or made when actually delivered to or received by the party to which the notice
is addressed at its respective address.
7. MUTILATION, DESTRUCTION, LOSS, OR
REISSUANCE.
7.1 Mutilation. This Note, if mutilated, may be
surrendered and thereupon the Individual shall execute and deliver in exchange therefore a new Note of
like tenor and principal amount.
7.2 Destruction, Loss, Etc. If there is delivered to
the Individual (i) evidence of the destruction, loss, or
theft of this Note and (ii) such indemnity as may be
required by it to save it harmless, then, in the absence
of notice to the Individual that this Note has been acquired by a bona fide purchaser, the Individual shall
execute and deliver in lieu of such destroyed, lost or
stolen Note, a new Note of like tenor and principal
amount.
8.

SUCCESSORS.

All of the covenants, stipulations, promises and
agreements in this Note contained by or on behalf of
the Individual shall bind and inure to the benefit of its

77a
successors whether so expressed or not and also to the
benefit of the Holder and its successors.
9.

GOVERNING LAW.

This Note shall be deemed to be a contract made
under the laws of the Commonwealth of Virginia and
for all purposes shall be construed in accordance with
the laws of such state.
10.

TRANSFERABILITY OF NOTE.

This Note and the shares of capital stock issuable
upon conversion hereof are not transferable except
pursuant to an effective registration statement under
the Securities Act of 1933, as amended, or unless an
exemption from the registration provisions of such Act
is applicable.
[Remainder of Page Intentionally Left Blank]

78a
IN WITNESS WHEREOF, the Individual has
caused this Note to be executed in its corporate name
by its duly authorized officers and to be dated as of the
day and year first above written,
INDIVIDUAL
By: /s/ Michael Han
Michael Han
THIS NOTE AND THE SHARES OF CAPITAL
STOCK ISSUABLE UPON CONVERSION OF THIS
NOTE HAVE NOT BEEN REGISTERED UNDER
THE SECURITIES ACT OF 1933, AS AMENDED
(THE “ACT), OR THE SECURITIES LAWS OF ANY
STATE. THIS NOTE AND ANY OF SUCH SHARES
MAY NOT BE SOLD, OFFERED FOR SALE,
PLEDGED, HYPOTHECATED, OR OTHERWISE
TRANSFERRED IN THE ABSENCE OF REGISTRATION UNDER SAID ACT AND ALL OTHER APPLICABLE SECURITIES LAWS, OR UNLESS AN
EXEMPTION FROM REGISTRATION IS AVAILABLE.
CONVERTIBLE PROMISSORY NOTE
$500,000

June 3, 2009

FOR VALUE RECEIVED, MICHAEL S. HAN/
ENVION INDUSTRIES, LLC (the “Individual” / “Company”), a District of Columbia Limited Liability Company, hereby promises to pay to the order of Mr. James
E. Russell (the “Holder’) the sum of. Five Hundred
Thousand Dollars Only ($500,000) with interest
thereon from the date of issuance of this Note at the

79a
rate set forth in Section 1.1 hereof All payments to be
made by the Company in repayment of interest and
principal hereunder shall be made in currency of the
United States of America which at the time of payment
shall be legal tender for the payment of public or private debts.
I.

PAYMENTS OF PRINCIPAL AND INTEREST.

1.1 Rate of Interest For the period from the date
hereof until all sums due hereunder, whether principal, interest, charges; fees or other minis, have been
paid in full, interest shall accrue on the unpaid, principal balance of this Note at the simple rate of eight
percent (8.00%) per annum. Interest on the outstanding principal balance of the Note will be computed on
the basis of a 365-day year.
1.2 Principal and Interest Payment. Unless converted into shares, of the Company’s capital stock in
accordance with Section 3 hereof, the total amount of
principal due under this Note and all accrued and unpaid interest thereon shall.be paid in a single lump
sum by the Company on September 3, 2009 (the “Maturity Date”).
2.

PREPAYMENTS PRIOR TO MATURITY.

Notwithstanding any other provisions of this
Note, the Company may prepay the Note in whole or
in part at any time without penalty. Any prepayments
received with respect to this Note shall first be applied
to the accrued but unpaid interest then outstanding,
with the remainder; if any, applied to principal.

80a
3.

CONVERSION OF NOTE.

3.1 Optional Conversion. The principal amount
and all accrued and unpaid interest owing under this
Note may be converted on the Maturity Date or thereafter (if this Note is not paid on the Maturity Date), in
whole, into fully paid and non-assessable shares of the
Company’s common stock (“Common Stock”) as provided below. In the event that the Holder wishes to convert this Note into Common Stock, the Holder shall
provide the Company with notice (the “Conversion Notice), at least fifteen (15) days prior to the Maturity
Date, that the Holder wishes to convert the Note into
shares of Common Stock. Following receipt of the Conversion Notice, the Company shall have the option of
either: (i) converting, on the Maturity Date, the principal amount and all accrued and unpaid interest owing
into Common Stock per share (which is based on a
Company valuation of $18,000,000,000 and at the
Company’s capitalization as of the date hereof ) for a
total value of $1,000,000; or (ii) electing to prepay the
Note prior to the Maturity Date in accordance with
Section 2; and (iii) the Company (at its sole discretion)
also pays (iv) an additional conversion value of
$1,000,000 in Common Stock, contingent upon the successful commercial deployment of two additional technologies (tire gasification and landfill mining) for a
total potential conversion distribution of $2,000,000 in
Common Stock.
3.2 Fractional Shares. No fractional shares of
capital stock shall be issued upon conversion of this
Note. Instead of any fractional share that would

81a
otherwise be issuable upon conversion of this Note, the
Company shall pay a cash adjustment in respect of
such fractional interest in an amount equal to the fair
market value of such fractional interest as determined
by the Board of Directors (whose good faith determination shall be conclusive).
3.3 Company to Provide Stock. The Company
shall at all times reserve and keep available out of the
aggregate of its authorized but unissued capital stock
or its issued capital stock held in its treasury, or both,
for the purpose of effecting the conversion of this Note,
such number of shares of capital stock or as shall then
be issuable upon the conversion of this Note. The Company covenants that all shares of capital stock issued
on conversion of this Note shall be duly and validly issued and fully paid and non-assessable and free from
all taxes, liens and charges with respect to the issue
thereof.
4.

EVENTS OF DEFAULT.

4.1 Events of Default Defined. The principal and
interest due and owing on this Note will become immediately due and payable, at the option and only upon
the consent of the Majority Holders, without notice, demand, protest, notice of protest and notice of default
(other than as provided herein) presentment for payment and diligence in collection, all of which are expressly waived, if the Company shall (i) breach any of
its obligations under this Note; (ii) admit in writing its
inability to pay its debts generally as they become due,
(iii) file a petition in bankruptcy or petition to take

82a
advantage of any insolvency act, (iv) make an assignment for the benefit of its creditors, (v) consent to the
appointment of a receiver of itself or of the whole of
any substantial part of its property, (vi) on a petition
in bankruptcy filed against it, be adjudicated as a
bankrupt, (vii) file a petition or answer seeking reorganization or arrangement under the federal bankruptcy laws or any other applicable law or statute of
the United States of America or any state thereof, or
(viii) distribute any of its assets upon any dissolution,
winding up, liquidation or reorganization of the Company. For purposes hereof, each of the above events is
hereafter referred to as an “Event of Default”.
4.2 Notification. If an Event of Default as defined
above shall occur, the Company will notify the Holder
promptly in writing by mail of the Event of Default describing it in reasonable detail, including a statement
of the nature and length of existence thereof, and what
action the Company proposes to take with respect
thereto.
5. SUITS FOR ENFORCEMENT UPON DEFAULT,
If an Event of Default shall have occurred, then
and in any such event the Holder may, at any time at
its option, declare the principal of and the accrued interest due under the Note to be due and payable,
whereupon the same shall forthwith mature and become due and payable without demand, protest, notice
of protest and notice of default, presentment for payment and diligence in collection, all of which are

83a
hereby expressly waived by the Company. In case any
Event of Default shall occur, the Holder may proceed
to protect and enforce its rights hereunder by a suit in
equity, action at law or other appropriate proceeding.
No course of dealing and no delay on the part of the
Holder in exercising any rights shall operate as a
waiver thereof or otherwise prejudice their rights and
no consent or waiver shall extend beyond the particular case involved.
6.

NOTICES.

Any request, demand, authorization, direction, notice, consent, waiver or other document permitted by
this Note to be made upon, given or furnished to, or
filed with the Company or the Holder shall be sufficient for every purpose hereunder if in writing and
mailed to the Company, addressed to it at 1027 33rd
Street N.W., Washington, D.C 20007 (or such subsequent address as the Company shall advise the Holder
hereof in writing) and if to the Holder at the address
at which payments are being made (or at such further
address as the Holder hereof shall advise the Company
in writing). All notices required hereunder shall be
deemed to have been given or made when actually delivered to or received by the party to which the notice
is addressed at its respective address.
7. MUTILATION, DESTRUCTION, LOSS; OR
REISSUANCE.
7.1 Mutilation. This Note, if mutilated, may be
surrendered and thereupon the Company shall

84a
execute and deliver in exchange therefore a new Note
of like tenor and principal amount.
7.2 Destruction, Loss, Etc. If there is delivered to
the Company (i) evidence of the destruction, loss, or
theft of this Note and (ii) such indemnity as may be
required by it to save it harmless, then, in the absence
of notice to the Company that this Note has been acquired by a bona fide purchaser, the Company shall execute and deliver in lieu of such destroyed, lost or
stolen Note, a new Note of like tenor and principal
amount.
8.

SUCCESSORS.

All of the covenants, stipulations, promises and
agreements in this Note contained by or on behalf of
the Company shall bind and inure to the benefit of its
successors whether so expressed or not and also to the
benefit of the Holder and its successors.
9.

GOVERNING LAW.

This Note shall be deemed to be a contract made
under the laws of the District of Columbia and for all
purposes shall be construed in accordance with the
laws of such state.
10.

TRANSFERABILITY OF NOTE.

This Note and the shares of capital stock issuable
upon conversion hereof are not transferable except
pursuant to an effective registration statement under
the Securities Act of 1933, as amended, or unless an

85a
exemption from the registration provisions of such Act
is applicable.
[Remainder of Page intentionally Left Blank]

86a
IN WITNESS WHEREOF, the Company has
caused this Note to be executed in its corporate name
by its duly authorized officers and to be dated as of the
day and year first above written.
ENVION INDUSTRIES INDIVIDUAL
By: Michael S. Han
Michael S. Han
THIS NOTE AND THE SHARES OF CAPITAL
STOCK ISSUABLE UPON CONVERSION OF THIS
NOTE HAVE NOT BEEN REGISTERED UNDER
THE SECURITIES ACT OF 1933, AS AMENDED
(THE “ACT”), OR THE SECURITIES LAWS OF ANY
STATE. THIS NOTE, AND ANY OF SUCH SHARES
MAY NOT BE SOLD, OFFERED FOR SALE,
PLEDGED, HYPOTHECATED, OR OTHERWISE
TRANSFERRED IN THE ABSENCE OF REGISTRATION UNDER SAID ACT AND ALL OTHER APPLICABLE SECURITIES LAWS, OR UNLESS AN
EXEMPTION FROM REGISTRATION IS AVAILABLE.
CONVERTIBLE PROMISSORY NOTE
$32,393,000

August 4, 2011

FOR VALUE RECEIVED, ENVION, INC. (the
“Company”), a Delaware Corporation, hereby promises
to pay to the order of Mr. Frank Carlucci (the “Holder”)
the sum of Thirty Two Million Three Hundred Ninety
Three Thousand Only ($32,393,000) with interest
thereon from the date of issuance of this Note at the
rate set forth in Section 1.1 hereof All payments to be

87a
made by the Company in repayment of interest and
principal hereunder shall be made in currency of the
United States of America which at the time of payment
shall be legal tender for the payment of public or private debts.
1.

PAYMENTS OF PRINCIPAL AND INTEREST.

1.1 Rate of Interest For the period from the date
hereof until all sums due hereunder, whether principal, interest, charges, fees or other sums., have been
paid in full, interest shall accrue on the unpaid principal balance of this Note at the simple rate of five percent (5.00%) per annum. Interest on the outstanding
principal balance of the Note will be computed on the
basis of a 365-day year.
1.2 Principal and Interest Payment. Unless converted into shares of the Company’s capital stock in accordance with Section 3 hereof, the total amount of
principal due under this Note and all accrued and unpaid interest thereon shall be paid in a single lump
sum by the Company on August 4, 2012 (the “Maturity
Date”).
2.

PREPAYMENTS PRIOR TO MATURITY.

Notwithstanding any other provisions of this
Note, the Company may prepay the Note in whole or
in part at any time without penalty. Any prepayments
received with respect to this Note shall first be applied
to the accrued but unpaid interest then outstanding,
with the remainder, if any, applied to principal.

88a
3.

CONVERSION OF NOTE.

3.1 Optional Conversion. The principal amount
and all accrued and unpaid interest owing under this
Note may be converted on the Maturity Date or thereafter (if this Note is not paid on the Maturity Date), in
whole, into fully paid and non-assessable shares of the
Company’s common stock (“Common Stock”) as provided below. In the event that the Holder wishes to convert this Note into Common Stock, the Holder shall
provide the Company with notice (the “Conversion Notice”), at least fifteen (15) days prior to the Maturity
Date, that the Holder wishes to convert the Note into
shares of Common Stock. Following receipt of the Conversion Notice, the Company shall have the option of
either: (i) converting, on the Maturity Date, the principal amount and all accrued and unpaid interest owing
into Common Stock per share (which is based on a
Company valuation of $750,000,000 and at the Company’s capitalization as of the date hereof ); or (ii) electing to prepay the Note prior to the Maturity Date in
accordance with Section 2.
3.2 Fractional Shares. No fractional shares of
capital stock shall be issued upon conversion of this
Note. Instead of any fractional share that would otherwise be issuable upon conversion of this Note, the Company shall pay a cash adjustment in respect of such
fractional interest in an amount equal to the fair market value of such fractional interest as determined by
the Board of Directors (whose good faith determination
shall be conclusive).

89a
3.3 Company to Provide Stock. The Company
shall at all times reserve and keep available out of the
aggregate of its authorized but unissued capital stock
or its issued capital stock held in its treasury, or both,
for the purpose of effecting the conversion of this Note,
such number of shares of capital stock or as shall then
be issuable upon the conversion of this Note. The Company covenants that all shares of capital stock issued
on conversion of this Note shall be duly and validly issued and fully paid and non-assessable and free from
all taxes, liens and charges with respect to the issue
thereof.
4.

EVENTS OF DEFAULT.

4.1 Events of Default Defined. The principal and
interest due and owing on this Note will become immediately due and payable, at the option and only upon
the consent of the Majority Holders, without notice, demand, protest, notice of protest and notice of default
(other than as provided herein) presentment for payment and diligence in collection, all of which are expressly waived, if the Company shall (i) breach any of
its obligations under this Note; (ii) admit in writing its
inability to pay its debts generally as they become due,
(iii) file a petition in bankruptcy or petition to take advantage of any insolvency act, (iv) make an assignment
for the benefit of its creditors, (v) consent to the appointment of a receiver of itself or of the whole of any
substantial part of its property, (vi) on a petition in
bankruptcy filed against it, be adjudicated as a bankrupt, (vii) file a petition or answer seeking reorganization or arrangement under the federal bankruptcy

90a
laws or any other applicable law or statute of the
United States of America or any state thereof, or (viii)
distribute any of its assets upon any dissolution, winding up, liquidation or reorganization of the Company.
For purposes hereof; each of the above events is hereafter referred to as an “Event of Default".
4.2 Notification. If an Event of Default as defined
above shall occur, the Company will notify the Holder
promptly in writing by mail of the Event of Default describing it in reasonable detail, including a statement
of the nature and length of existence thereof ’, and
what action the Company proposes to take with respect thereto.
5. SUITS FOR ENFORCEMENT UPON DEFAULT.
If an Event of Default shall have occurred, then
and in any such event the Holder may, at any time at
its option, declare the principal of and the accrued interest due under the Note to be due and payable,
whereupon the same shall forthwith mature and become due and payable without demand, protest, notice
of protest and notice of default, presentment for payment and diligence in collection, all of which are
hereby expressly waived by the Company. In case any
Event of Default shall occur, the Holder may proceed
to protect and enforce its rights hereunder by a suit in
equity, action at law or other appropriate proceeding.
No course of dealing and no delay on the part of the
Holder in exercising any rights shall operate as a
waiver thereof or otherwise prejudice their rights and

91a
no consent or waiver shall extend beyond the particular case involved.
6.

NOTICES.

Any request, demand, authorization, direction, notice, consent, waiver or other document permitted by
this Note to be made upon, given or furnished to, or
filed with the Company or the Holder shall be sufficient for every purpose hereunder if in writing and
mailed to the Company, addressed to it at 1054 31st
Street, Suite 300, Washington, D.C. 20007 (or such subsequent address as the Company shall advise the
Holder hereof in writing) and if to the Holder at the
address at which payments are being made (or at such
further address as the Holder hereof shall advise the
Company in writing). All notices required hereunder
shall be deemed to have been given or made when actually delivered to or received by the party to which
the notice is addressed at its respective address.
7. MUTILATION, DESTRUCTION, LOSS, OR
REISSUANCE.
7.1 Mutilation. This Note, if mutilated, may be
surrendered and thereupon the Company shall execute and deliver in exchange therefore a new Note of
like tenor and principal amount.
7.2 Destruction, Loss, Etc. If there is delivered to
the Company (i) evidence of the destruction, loss, or
theft of this Note and (ii) such indemnity as may be
required by it to save it harmless, then, in the absence
of notice to the Company that this Note has been

92a
acquired by a bona fide purchaser, the Company shall
execute and deliver in lieu of such destroyed, lost or
stolen Note, a new Note of like tenor and principal
amount.
8.

SUCCESSORS.

All of the covenants, stipulations, promises and
agreements in this Note contained by or on behalf of
the Company shall bind and inure to the benefit of its
successors whether so expressed or not and also to the
benefit of the Holder and its successors.
9.

GOVERNING LAW.

This Note shall be deemed to be a contract made
under the laws of the Commonwealth of Virginia and
for all purposes shall be construed in accordance with
the laws of such state.
10.

TRANSFERABILITY OF NOTE.

This Note and the shares of capital stock issuable
upon conversion hereof are not transferable except
pursuant to an effective registration statement under
the Securities Act of 1933, as amended, or unless an
exemption from the registration provisions of such Act
is applicable.
[Remainder of Page Intentionally Left Blank]

93a
IN WITNESS WHEREOF, the Company has
caused this Note to be executed in its corporate name
by its duly authorized officers and to be dated as of the
day and year first above written.
ENVION, INC.
By: Michael Han
Michael Han, CEO

Does the Corporation have a History of Paying Dividends;
The Existence of Corporate Earnings & Profits;

(2)
(3)

(5) How the Parties Recorded the S/H Loan in the Corporate Books and
Records;

(4) The Amount of the Loans and Whether there is a Ceiling to Limit the
Amount Advanced;

Shareholder Control over the Corporation;

(1)

How the IRS Evaluates Shareholder Loans

94a

Was there a Fixed Schedule of Repayment;
Did the S/H Make Any Payments;

(8)
(9)
Whether Interest was Paid or Accrued;

Did the S/H Provide Security/Collateral for the Advance;

(7)

(10)

Are there Executed Notes;

(6)

How The IRS Evaluates Shareholder Loans

95a

Are the Advances to the S/H Proportionate to Stake in Company.

(12)

Each factor is considered with all the facts and circumstances that are present.

The list is not exhaustive and no single factor, standing alone, is dispositive.

Did the S/H have the Ability to Repay; and

(11)

How The IRS Evaluates Shareholder Loans

96a

97a
United States v. Michael Han
Statutory Addendum
26 U.S.C. § 7201 – Attempt to evade or defeat tax
Any person who willfully attempts in any manner to
evade or defeat any tax imposed by this title or the payment thereof shall, in addition to other penalties provided by law, be guilty of a felony and, upon conviction
thereof, shall be fined not more than $100,000
($500,000 in the case of a corporation), or imprisoned
not more than 5 years, or both, together with the costs
of prosecution.

26 U.S.C. § 61 – Gross income defined
(a) General definition.—Except as otherwise provided in this subtitle, gross income means all income
from whatever source derived, including (but not limited to) the following items:
(1) Compensation for services, including fees,
commissions, fringe benefits, and similar items;
(2)

Gross income derived from business;

(3)

Gains derived from dealings in property;

(4)

Interest;

(5)

Rents;

(6)

Royalties;

(7)

Dividends;

(8)

Annuities;

98a
(9) Income from life insurance and endowment
contracts;
(10)

Pensions;

(11)

Income from discharge of indebtedness;

(12) Distributive share of partnership gross income;
(13)

Income in respect of a decedent; and

(14) Income from an interest in an estate or
trust.
[(15)

Redesignated (14)]

(b) Cross references.—For items specifically included
in gross income, see part II (sec. 71 and following). For
items specifically excluded from gross income, see part
III (sec. 101 and following).

